No. 19-554

In the Supreme Court of the United States
50 MURRAY STREET ACQUISITION LLC,
Petitioner,
v.
JOHN KUZMICH, ET AL.,
Respondents.

CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for the Real Estate Board of New York hereby
certify that on this 27th day of November, 2019, I caused three copies of the Brief of
the Real Estate Board of New York as Amicus Curiae in support of petitioner to be
served by overnight delivery on the following counsel:
Mark W. Mosier
Covington & Burling, LLP
One CityCenter 850 Tenth St., NW
Washington, DC 20001
Tel: (202) 662-5435
mmosier@cov.com

Robert S. Smith
Friedman Kaplan Seiler & Adelman LLP
Seven Times Square
New York, NY 10036-6516
Tel: (212) 833-1100
rsmith@fklaw.com

Counsel of Record for Petitioner

Counsel of Record for Respondents

I further certify that all parties required to be served have been served.
/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

